THE COMMONWEALTH OF MASSACHUSETTS
OFFICE OF THE ATTORNEY GENERAL
ONE ASHBURTON PLACE
BOSTON, MASSACHUSETTS 02108
(617) 727-2200
(617) 727-4765 TTY
www.mass.gov/ago

February 25, 2021
VIA ELECTRONIC FILING
Hon. Scott. S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re: Kevin Francis v. Massachusetts, No. 20-6731
Dear Clerk Harris:
The Respondent has been asked by the Court to file a brief in response to the petition for
certiorari in the above captioned case by March 8, 2021. Pursuant to Supreme Court Rules 15.3,
30.2, and 30.4, I respectfully request that the Respondent’s deadline be extended by sixty days,
to May 7, 2021. My request is based on the nature of the matter, the need for thorough review
within the Massachusetts Attorney General’s Office, and the extent of my own professional
commitments, as well as those of my colleague, Maria Granik, who will be working with me on
this matter. Counsel for the Petitioner does not oppose this request for an extension.
The underlying state-court proceedings were not handled by me or by anyone in my
office, but by a district attorney’s office. Thus, becoming acquainted with all aspects of the
proceedings will require a significant amount of time. Moreover, a Court-requested brief in
response to a certiorari petition is rightfully given close scrutiny in my office. The brief in this
case will be subjected to multiple rounds of thorough evaluation and revision by various
attorneys at different levels. And while we will give this matter top priority, we are also
responsible for handling a number of other matters, including federal habeas corpus actions with
upcoming deadlines.
For the foregoing reasons, a sixty-day extension will enable my office to provide the
Court with more thorough and helpful briefing. It will not prejudice any party. On behalf of the
Respondent, I request that such an extension be allowed.

Thank you for your consideration.
Very truly yours,

Thomas E. Bocian
Assistant Attorney General
Criminal Bureau
(617) 727-2200, ext. 2617
thomas.bocian@mass.gov
Counsel of Record for the Respondent,
the Commonwealth of Massachusetts

CERTIFICATE OF SERVICE
Pursuant to the Supreme Court’s April 15, 2020 Order and by agreement of the parties, I
hereby certify that, on the date set forth below, a true copy of the accompanying document was
served by electronic mail to the Counsel of Record for the one other party to the case:
Jeffrey T. Green, Esq.
Sidley Austin LLP
1501 K Street, NW
Washington, DC 20005
jgreen@sidley.com
Counsel of Record for the Petitioner, Kevin Francis

_______________________________
Thomas E. Bocian
Counsel of Record for the Respondent,
the Commonwealth of Massachusetts

Dated: February 25, 2021

